                                              OCCUPATIONAL SAFETY AND
                                              HEALTH ADMINISTRATION


Office of Inspector General—Office of Audit




                                              OSHA HAS NOT DETERMINED IF STATE OSH
                                              PROGRAMS ARE AT LEAST AS EFFECTIVE IN
                                              IMPROVING WORKPLACE SAFETY AND HEALTH
                                              AS FEDERAL OSHA'S PROGRAMS




                                                                 Date Issued:     March 31, 2011
                                                              Report Number:    02-11-201-10-105
U.S. Department of Labor                                      March 2011
Office of Inspector General
Office of Audit
                                                              OSHA HAS NOT DETERMINED IF STATE OSH
                                                              PROGRAMS ARE AT LEAST AS EFFECTIVE IN
                                                              IMPROVING WORKPLACE SAFETY AND
BRIEFLY…                                                      HEALTH AS FEDERAL OSHA'S PROGRAMS
Highlights of Report Number 02-11-201-10-105, to the
Assistant Secretary for Occupational Safety and Health

WHY READ THE REPORT                                           WHAT OIG FOUND
The role of the Occupational Safety and Health                OSHA has not yet designed a method to examine the
Administration (OSHA) is to promote workers’ safety           impact of State OSH programs to ensure they are at
and health. Through its programs and partners, OSHA           least as effective as Federal programs. State officials
claimed it reduced work-related fatalities, injuries, and     generally believed their programs were effective, but
illnesses. The Bureau of Labor Statistics reported 4,340      there was no quantifiable data to demonstrate
fatalities and 965,000 non-fatal injuries and illnesses for   effectiveness. OSHA officials acknowledged that
2009. Liberty Mutual Annual Workplace Safety Index            effectiveness measures would be desirable, but difficult
reported over $53 billion in workers compensation costs       to develop. As a result, OSHA lacks critical information
for 2008.                                                     needed to make informed decisions.

The Occupational Safety and Health Act of 1970 (OSH           •	   Defining Effectiveness. State officials expressed
Act) authorizes States to assume some responsibilities             concerns regarding the lack of clear expectations
to develop and enforce safety and health standards,                for effective programs and that some program
and authorizes grants of up to 50 percent of costs to              changes required by OSHA may not necessarily
States with programs at least as effective as the                  increase effectiveness of their states’ programs.
Federal program. Since 1972, States were granted
$2.4 billion to develop and operate effective                 •	   Measuring Effectiveness. OSHA officials admitted
Occupational Safety and Health (OSH) programs.                     OSHA does not have outcome measures to gauge
                                                                   effectiveness. States were evaluated on activity-
                                                                   based data, which OSHA officials stated would
WHY OIG CONDUCTED THE AUDIT                                        provide valuable operational information and proxy
In 2009, complaints filed with OSHA and congressional              measures of effectiveness.
interest prompted OSHA to conduct a special review of
Nevada OSH. Prior to the review, Nevada OSH                   •	   Establishing Minimum Criterion. OSHA has not
received favorable monitoring reports while it was                 evaluated the impact of its own enforcement
sharply criticized in media coverage on the handling of            program in order to establish the minimum criterion
25 fatalities. The special review revealed significant             to evaluate state programs.
operational issues. Subsequently, OSHA expanded
monitoring of other States’ programs to include on-site       •	   Monitoring Effectiveness. In 2009, OSHA expanded
case reviews.                                                      monitoring to include on-site case file reviews, but
                                                                   had neither changed nor expanded the measures it
The objective of this audit was to answer the question:            used to evaluate performance.
Has OSHA ensured that State Plans operate OSH
programs that are at least as effective as Federal
OSHA? The audit covered OSHA’s monitoring of all 27           WHAT OIG RECOMMENDED
State Plan programs operating in Fiscal Year 2010.            We made four recommendations to the Assistant
                                                              Secretary for Occupational Safety and Health to define
                                                              effectiveness, design measures to quantify impact,
READ THE FULL REPORT                                          establish a baseline for State Plan evaluations, and
To view the report, including the scope, methodology,         revise monitoring to include an assessment of
and full agency response, go to:                              effectiveness.
http://www.oig.dol.gov/public/reports/oa/2011/02-11-
201-10-105.pdf                                                In responding to our report, OSHA agreed with the
                                                              intent of the recommendations, but had concerns that
                                                              defining effectiveness by relying exclusively on impact
                                                              or outcome measures would be extremely problematic.
                 U.S. Department of Labor – Office of Inspector General 


                                                                         







    PAGE INTENTIONALLY LEFT BLANK 





                          OSHA Monitoring of State OSH Effectiveness 

                                        Report No. 02-11-201-10-105 

                                                             U.S. Department of Labor – Office of Inspector General 


                                                                                                                     




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1
	

Results In Brief .............................................................................................................. 2
	

Objective — Has OSHA ensured that State Plans operate OSH programs 

            that are at least as effective as Federal OSHA? .................................... 3
	
         OSHA has not determined the effectiveness of State OSH programs.................. 3
	
                                                                                            


         Finding — OSHA Has Not Determined If State OSH Programs Are at 

                  Least as Effective in Improving Workplace Safety and 

                  Health as Federal OSHA Programs. ................................................ 3
	

Recommendations ........................................................................................................ 9
	

Exhibits
         Exhibit 1 Comments of State OSH Officials on OSHA Monitoring ...................... 13
	
         Exhibit 2 Data Used by OSHA in Annual Review of State Plans ........................ 15
	

Appendices
         Appendix A Background ..................................................................................... 19
	
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 21
	
         Appendix C Acronyms and Abbreviations .......................................................... 23
	
         Appendix D OSHA Response to Draft Report .................................................... 25
	
         Appendix E Acknowledgements ......................................................................... 29
	




                                                                         OSHA Monitoring of State OSH Effectiveness 

                                                                                       Report No. 02-11-201-10-105 

             U.S. Department of Labor – Office of Inspector General 






PAGE INTENTIONALLY LEFT BLANK 





                      OSHA Monitoring of State OSH Effectiveness 

                                    Report No. 02-11-201-10-105 

                                                          U.S. Department of Labor – Office of Inspector General 


                                                                                                                  

 

U.S. Department of Labor                                Office of Inspector General
                                                        Washington, D.C. 20210




March 31, 2011

                                  Assistant Inspector General’s Report



Dr. David Michaels
Assistant Secretary for
 Occupational Safety and Health
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210


The role of the Occupational Safety and Health Administration (OSHA) is to promote
workers’ safety and health by setting and enforcing standards; providing training,
outreach, and education; establishing partnerships; and encouraging continual process
improvement. The Occupational Safety and Health Act of 1970 (OSH Act) authorizes
States 1 to assume some responsibilities to develop and enforce safety and health
standards, and provides for grants of up to 50 percent of operational costs to States
with programs at least as effective as Federal OSHA. Over a period of nearly 40
years, OSHA granted $2.4 billion to States to develop and operate effective
Occupational Safety and Health (OSH) programs.

In Fiscal Year 2010, OSHA granted $104 million for State OSH programs. We audited
OSHA’s monitoring of all 27 State Plan programs to answer the question:

       •	 Has OSHA ensured that State Plans operate OSH programs that are at least as
          effective as Federal OSHA?

For the audit, we evaluated internal controls over the monitoring of State Plan
programs. We reviewed OSHA policies and procedures, and related audit reports from
OIG and Government Accountability Office (GAO), and OSHA internal monitoring
reports. We tested compliance with monitoring procedures through interviews and
examination of documents in two regions (New York City and Philadelphia). We
interviewed officials at OSHA National and 10 Regional Offices, and the states of New
Jersey and Maryland. We surveyed all 27 State Plan administrators regarding OSHA
monitoring.



1
    Includes the District of Columbia, Puerto Rico, U.S. Virgin Islands, American Samoa, Guam, and the Trust Territory
       of the Pacific Islands

                                                                      OSHA Monitoring of State OSH Effectiveness 

                                                            1                       Report No. 02-11-201-10-105 

                                           U.S. Department of Labor – Office of Inspector General 


                                                                                                   


We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

RESULTS IN BRIEF

OSHA is responsible for ensuring the effectiveness of State OSH programs. While it
collects statistics on program activities, this is not sufficient to assess a state’s
effectiveness in protecting workers. OSHA has not designed a method to determine that
State Plans are at least as effective as Federal OSHA in reducing injuries and illnesses.
Moreover, OSHA has not evaluated the impact of its own enforcement program in order
to arrive at minimum criterion to evaluate state programs. State officials generally
believed their programs were effective, but there was no quantifiable data to
demonstrate program effectiveness. OSHA required States to make program changes,
but did not explain how the changes would improve effectiveness.

In an attempt to ensure quality State programs, OSHA made several revisions to its
monitoring procedures and measures reviewed. Monitoring was enhanced to include
on-site reviews of case files. OSHA’s enforcement programs (both State and Federal
OSHA) were evaluated on (1) injury and illness data, and (2) fatality data. Individual
States were evaluated on activity-based data including inspection counts, penalty
amounts, injury and fatality rate trends, Integrated Management Information System
(IMIS) and recordkeeping, measures for timeliness and completion of inspections,
violation classification, staffing benchmarks, and timely adoption of standards. Officials
stated these activity-based measures can be valuable in assessing program operations
– especially when coupled with on-site reviews. However, OSHA has not developed
measures to address the core issue of whether State Plans are or are not at least as
effective as Federal OSHA. State-level injury and illness data were not sufficient for
comparing outcomes for State Plans with outcomes for states covered by Federal
OSHA. Also, according to OSHA, injury, illness, and fatality data are unpredictable and
may be impacted by economic and other factors.

As a result, OSHA lacks evidence to demonstrate the effectiveness of State Plans and
the merits of any program changes which may impact its decisions on policies,
enforcement priorities, and funding. OSHA officials admitted to not currently having
extensive, quantitative performance measures to evaluate the State Plans. They
acknowledged these measures would be desirable, but difficult to develop. Officials
agreed that many measures were, by necessity, activity-based rather than outcome
measures. This was, in part, because outcome data were lacking.

We made four recommendations to the Assistant Secretary for Occupational Safety and
Health: (1) define effectiveness; (2) design measures to quantify impact; (3) establish a
baseline using Federal OSH programs to evaluate State Plans; and (4) revise

                                                    OSHA Monitoring of State OSH Effectiveness 

                                             2                    Report No. 02-11-201-10-105 

                                                        U.S. Department of Labor – Office of Inspector General 


                                                                                                                


monitoring processes to include assessments about whether State Plans are at least as
effective as Federal OSHA programs.

In response to the draft report, the Assistant Secretary for Occupational Safety and
Health agreed with the intent of the recommendations, and stated OSHA will continue to
develop additional impact measures for both Federal OSHA and the States. However,
the Assistant Secretary expressed concern that attempting to define the effectiveness of
State Plans by relying exclusively on a system of impact or outcome measures is not
only extremely problematic, but would not fulfill the more specific and extensive
requirements of the OSH Act.

We agree with the Assistant Secretary that OSHA should continue to develop impact
measures to ensure that State programs are effective, and that these measures should
be used in conjunction with activity-based measures to ensure compliance with OSH
Act requirements. The Assistant Secretary’s response is included in its entirety as
Appendix D.

RESULTS AND FINDINGS

Objective — Has OSHA ensured that State Plans operate OSH programs that are
            at least as effective as Federal OSHA?

         OSHA has not determined the effectiveness of State OSH programs.

Finding — OSHA Has Not Determined If State OSH Programs Are at Least as
          Effective in Improving Workplace Safety and Health as Federal OSHA
          Programs.

Through FY 2010, OSHA granted $2.4 billion to States to develop and operate effective
OSH programs. Section 23(g) of the OSH Act authorizes grants for up to 50 percent of
total operational costs to States with standards and enforcement programs that are at
least as effective as the Federal OSHA program. However, OSHA has not yet designed
a method to examine the impact of State programs on workplace safety and health to
ensure they are effective, and to fully evaluate the merits of any program changes. This
was identified as an issue by 70 percent of States surveyed. As a result, OSHA lacks
critical information on performance, which may impact its decisions on policies,
enforcement priorities, and funding.

Occupational injuries and illnesses significantly impact worker lives in addition to profits
and employment. The Bureau of Labor Statistics (BLS) reported 4,340 work-related
fatalities and 965,000 major non-fatal injuries and illnesses for 2009. According to the
2010 Liberty Mutual Annual Workplace Safety Index, the cost of the most disabling
workplace injuries and illnesses in 2008 amounted to $53.42 billion in workers
compensation costs, averaging more than one billion dollars per week. 2 Through its
2
 Annual Workplace Safety Index is published by Liberty Mutual Research Institute for Safety to provide scientific,
business-relevant knowledge in workplace and highway safety, and work disability.

                                                                   OSHA Monitoring of State OSH Effectiveness 

                                                          3                      Report No. 02-11-201-10-105 

                                            U.S. Department of Labor – Office of Inspector General 


                                                                                                    


programs and partners, OSHA claimed it impacted workplace safety and health by
reducing work-related fatalities, injuries, and illnesses. However, OSHA has not
quantified the extent of impact, and therefore lacks the requisite information needed to
make informed decisions.

States need to maintain valuable and efficient OSH programs with the current strain on
resources. Both state and local governments are facing budget crises, and must target
resources more efficiently without sacrificing quality. The majority of the states
(63 percent) are concerned about recent challenges over budgets and resources. The
association representing the State Plan states reported for 2009 that the budget for
State Plans has remained stagnant since 2001 and the ‘real dollars’ available to states
significantly decreased considering inflation. According to OSHA officials, 2010 State
Plan funding was increased by $11.8 million in response.

Defining Effectiveness

OSHA has not defined effectiveness in the context of State Plan programs. Without
qualitative factors defining effectiveness, OSHA cannot ensure that State Plans are
operating in an effective manner. Moreover, OSHA needs to define when State
programs would be deemed as performance failures, to serve as a basis for using its
ultimate authority to revoke State Plan approval.

State Plan Administrators are concerned about a lack of clear expectations, which has
led to confusion. Federal OSHA has not provided the states the evidence to show that
their activity-based framework (i.e. number of inspections) correlates to effectiveness.
Although states think their plans are effective, without an outcome-based framework,
they cannot show that their activities have improved workplace safety and health.

GAO had already highlighted many of these issues in their 1988 report, OSHA’s
Monitoring and Evaluation of State Programs, report number GAO/T-HRD-88-13:

       OSHA Needs to Know the Impact of State Programs on Worker Safety
       and Health
       OSHA’s legislation does not specifically define ‘effectiveness,’ but it does
       require that the states’ standards and their enforcement should be at least
       as effective as those of the federal government ‘in providing safe and
       healthful employment and places of employment.’ OSHA, however,
       defines the effectiveness of state programs in terms of program activities,
       giving little attention to determining what characteristics of state programs
       have contributed to the reduction (or lack of reduction) in workplace
       injuries and illnesses so that program improvements could be made.

According to OSHA’s State Plan Policies and Procedures Manual, a State OSH
program is judged to be at least as effective as Federal OSHA if the State is making
reasonable progress toward meeting its established performance goals and is fulfilling
its mandated responsibilities. OSHA officials stated that effectiveness “... is not a static

                                                     OSHA Monitoring of State OSH Effectiveness 

                                              4                    Report No. 02-11-201-10-105 

                                                      U.S. Department of Labor – Office of Inspector General 


                                                                                                              


expectation but rather one that changes as the Federal OSHA program changes.
Whenever a new standard, a new policy, a new emphasis program is implemented, the
States must respond.” OSHA (1) has not developed fundamental principles of
effectiveness, and (2) is not required to justify program changes imposed on states,
while requiring states to do so. In comments to the Federal Register, OSHA stated:

           OSHA believes it would not be practicable or advisable to issue guidance
           defining the term ‘at least as effective.’ … OSHA must and should
           continue to rely on the States to demonstrate that particular State-
           developed alternative standards or procedures are ‘at least as effective.’
           … if OSHA disagrees, it must institute an adjudicatory rejection
           proceeding in which the burden of proof rests with OSHA, not the State. 3

State Plan Administrators expressed concerns that OSHA’s “moving target” approach
resulted in a lack of clear expectations for programs to be at least as effective, and that
some of OSHA’s required program changes, such as increasing penalty amounts, may
not necessarily increase the effectiveness of their states’ programs. Officials for 21 of 27
states generally believed their programs were effective, based on comprehensive
knowledge of local employers. (See Exhibit 1 for detailed survey responses from the
State officials.)

Most of the States (63 percent) questioned the impact of some of OSHA’s required
program changes – whether the changes necessarily increased effectiveness. Many
states claimed to have created unique safety and health initiatives; however, they, along
with OSHA, lack the data to adequately evaluate the merits of these innovations. As one
state administrator commented:

           State programs believe that a national dialogue must be undertaken about
           the OSHA paradigm itself, including how OSHA and the state programs
           can come to a clearer understanding of what it means for a state program
           to be at least as effective as OSHA, and how to move cooperatively
           forward to improve workplace safety and health. … If state programs and
           Federal OSHA have disparate views of effectiveness, and what
           constitutes effectiveness, then a significant philosophical disagreement
           exists.

Measuring the Effectiveness of State Plan Programs

Refining the expectation for effectiveness, the Federal Chief Performance Officer (CPO)
in September 2010 emphasized that government needed to work better, faster, and
more efficiently. To achieve these goals the CPO stated that “Empirical evidence is an
essential ingredient for assessing whether government programs are achieving their
intended outcomes and guiding continuous improvement.” The current administration’s
strategy for performance management was described in the FY 2012 Analytical

3
    Federal Register, volume 67, number 186, 25 Sep 2002, pp 60123

                                                                OSHA Monitoring of State OSH Effectiveness 

                                                        5                     Report No. 02-11-201-10-105 

                                                       U.S. Department of Labor – Office of Inspector General 


                                                                                                               


Perspectives Budget Chapter 7 – Delivering High Performance Government, 4 as
follows:

           ... Federal agencies must adopt an evidence-based culture in which
           decisions are made using information collected in a timely and consistent
           manner about the effectiveness of specific policies, practices, and
           programs. Strategies for developing evidence exist along a continuum
           from the basic collection of program and outcomes information, to more
           sophisticated performance measurement and formative evaluation
           methods, to rigorous evaluation techniques that measure program and
           practice impacts against a comparison group.

           Transparent, coherent performance information contributes to more
           effective, efficient, fair, inclusive, and responsive government.
           Communicating performance information can support public
           understanding of what government wants to accomplish and how it is
           trying to accomplish it. It can also support learning across government
           agencies, stimulate idea flow, enlist assistance, and motivate performance
           gain.

In an attempt to measure the quality of state programs, OSHA evaluates individual
states using activity-based data including inspection counts, penalty amounts, injury and
fatality rate trends, IMIS/recordkeeping, measures for timeliness and completion of
inspections, violation classification, staffing benchmarks, and timely adoption of
standards. However, OSHA has not developed measures to address the core issue of
whether State Plans are or are not at least as effective as Federal OSHA. This was
identified as an issue by 70 percent of States surveyed. (See Exhibit 2 for details on
data collected during OSHA’s annual review of State Plans.)

OSHA needs to develop measures that can quantify the effect of State Plan programs
activities on occupational safety and health. OSHA officials admitted to not currently
having extensive, quantitative performance measures to evaluate the State Plans. The
officials agreed that many measures were by necessity activity-based because outcome
data were lacking. Officials stated that activity measures provided valuable information
on State program operations and were helpful proxy measures of effectiveness.

Officials from 17 states (63 percent) commented that OSHA’s performance measures
needed to be re-evaluated. As one state plan administrator stated:

           In the end, the gold standard for success is the reduction of workplace
           fatalities, injuries, and illnesses, as well as fostering concrete changes in
           workplace behavior to increase safety performance, and we will not be
           able to address effectiveness adequately until we have metrics in place
           that tell us how much progress we are making in these areas. …neither

4
    Source – http://www.whitehouse.gov/omb/budget/Analytical_Perspectives/ Chapter 7-2012

                                                                 OSHA Monitoring of State OSH Effectiveness 

                                                         6                     Report No. 02-11-201-10-105 

                                                           U.S. Department of Labor – Office of Inspector General 


                                                                                                                   


           OSHA nor any of the state plans have yet progressed to the point of
           having metrics like these in place.

Establishing a Minimum Criterion for State Plan Effectiveness

OSHA has not evaluated the impact of its own enforcement program in order to arrive at
a minimum criterion to evaluate state programs. Since 1993, the Federal Government
required effectiveness to be measured through the Government Performance Results
Act (GPRA) where Federal agencies had to establish objective quantifiable performance
goals and to measure program results. With its goal to improve workplace safety and
health, OSHA measures its results using rates for injuries and illnesses, and fatalities.
However, these measures are not sufficient to conclude on program effectiveness
because the data are incomplete, unverified, and may be impacted by economic factors.
OSHA has incomplete information on Federal OSHA states, and consequently lacks the
requisite baseline against which to gauge state performance.

For 2009 GPRA reporting, OSHA used two nationwide measures for performance – the
Bureau of Labor Statistics (BLS) – Days Away, Restricted, or Transferred (DART) 5 rate
from the Annual Survey of Occupational Injuries and Illnesses; and a fatality rate using
data from the OSHA Integrated Management Information System (IMIS) and BLS’
Current Employment Statistics. For 2010, OSHA used measures from their IMIS on
fatalities associated with the four leading causes of workplace death.

However, 2009 and 2010 GPRA data are not adequate measures to determine
effectiveness.

       •	 State-level DART rate data is not sufficient to present a complete picture of
          injuries and illnesses for comparing outcomes for State Plans with outcomes for
          states covered by Federal OSHA. Private sector state-level DART data was not
          available for 10 states – 20 percent of workplaces and employees covered by
          Federal OSHA. According to BLS, the number of States with available data
          varies from year to year because not all States have sample sizes sufficient to
          generate specific estimates of workplace injuries and illnesses. Industry specific
          data within states also varies, primarily due to the differences in industry
          concentration and sample size from one State to the next.

       •	 Fatalities are also not adequate measures. As stated by OSHA in the FY 2010
          Performance Report, fatalities cannot be predicted and lower fatality numbers
          may be related to economic conditions.

GAO reported on the lack of program impact data in their 1994 report, Changes Needed
in the Combined Federal-State Approach, report number GAO/HEHS-94-10:




5
    Source – http://www.bls.gov/iff/oshState.htm. Data set included 41 states and 3 territories for 2009.

                                                                      OSHA Monitoring of State OSH Effectiveness 

                                                             7                      Report No. 02-11-201-10-105 

                                           U.S. Department of Labor – Office of Inspector General 


                                                                                                   


      The experience in these states, as well as the results of several empirical
      studies, lead us to believe that using worksite-specific data in addition to
      industry-aggregated data could improve OSHA’s inspection targeting,
      education and training efforts, and evaluations of program impact.

Since OSHA has not established a baseline to evaluate its own program, OSHA’s
current measures to conclude on state program effectiveness are not sufficient.
Consequently, OSHA lacks the clear understanding of the impact of State programs on
safety and health.

Monitoring for Effectiveness

The Act does not specifically require OSHA to monitor for effectiveness, but it is implied
in its requirements, such as the criterion that grants are to be awarded to States with
plans at least as effective as Federal OSHA. The State Plan Policies and Procedures
Manual states the purpose of Chapter 9 -- Evaluation of State Performance and Annual
Reports, is to describe the methods used to evaluate States' effectiveness. However,
these guidelines require that States progress toward their activity goals, and these goals
are not tied to maintaining effective programs. As a result, OSHA lacks procedures to
evaluate the effectiveness of State Plans and the merits of any program changes.

The OSH Act required continuing evaluations of states operating under approved plans
to ensure that the programs are at least as effective as Federal OSHA. Additionally, the
Assistant Secretary will determine whether the State plan provides an adequate method
to assure that its standards will continue to be at least as effective as Federal
standards, including Federal standards relating to issues covered by the plan, which
become effective subsequent to any approval of the plan. OSHA is required to
determine potential outcomes of departures from the Federal program, and if the
differences have an adverse impact on the “at least as effective as” status of state
programs.

Over the years, OSHA's monitoring has changed from a system of measuring the states
against Federal performance on various indicators to the current reviews that measure
state performance against the state's own goals. OSHA also varied its level of oversight
between desk and on-site reviews. In the 1970s, monitoring was on-site, intensive, and
included reviews of state enforcement case files, accompanying inspectors to observe
their work, and manual data gathering. In the mid-1980s, OSHA discontinued routine
accompanied visits and case file reviews. In the mid-1990s, oversight was again
reduced to a goal-based system whereby states developed 5-year strategic and annual
performance plans that included goals of reducing workplace injuries, illnesses and
fatalities. OSHA evaluated state performance in relation to the planned goals by
performing the following tasks: (1) verifying state-supplied data with data from BLS;
(2) tracking timely adoption of new Federal OSH standards by the States; and (3)
meeting quarterly with State OSH officials.




                                                    OSHA Monitoring of State OSH Effectiveness 

                                            8                     Report No. 02-11-201-10-105 

                                                       U.S. Department of Labor – Office of Inspector General 


                                                                                                               


In 2009, OSHA initiated significant changes in monitoring to increase comprehensive
oversight of all state programs due to problems found in the Nevada program. In 2008,
Nevada OSH received favorable monitoring reports. While in media coverage, Nevada
OSH was sharply criticized on the handling of 25 fatalities. Complaints filed with OSHA
and congressional interest prompted OSHA to conduct a special on-site review of the
state program, which revealed significant operational issues. Congressional staffers
expressed concern that OSHA’s Federal monitoring reports were inadequate since
Nevada OSH received glowing reviews despite having serious problems.

Subsequently, OSHA decided to conduct special on-site reviews of the other State
Plans. These Enhanced Federal Annual Monitoring and Evaluation (EFAME) reviews
provided detailed findings and more than 650 recommendations on the structure and
processes for 25 of the 27 State Plan OSH programs. 6 The EFAME reviews required
more on-site monitoring that focused on compliance with Federal OSHA program
structure and procedures. Generally, State officials considered OSHA recommendations
to be feasible, but some commented on the substance of the recommendations.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Occupational Safety and Health:

    1. Define effectiveness in terms of the impact of State OSH programs on workplace
       safety and health.

    2. Design measures to quantify the impact of State OSH on workplace safety and
       health.

    3. Measure Federal OSH program to establish a baseline to evaluate State OSH
       effectiveness.

    4. Assure effectiveness by revising the monitoring processes to include comparison
       of the impact of State OSH and Federal OSHA.

We appreciate the cooperation and courtesies that OSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General for Audit


6
  Illinois was excluded from the process due to the fact that it is a developmental program. Nevada was excluded due
to the fact that the EFAME process was triggered by issues discovered in the State.

                                                                  OSHA Monitoring of State OSH Effectiveness 

                                                         9                      Report No. 02-11-201-10-105 

             U.S. Department of Labor – Office of Inspector General 






PAGE INTENTIONALLY LEFT BLANK 





                      OSHA Monitoring of State OSH Effectiveness 

              10                    Report No. 02-11-201-10-105 

             U.S. Department of Labor – Office of Inspector General 


                                                                     







Exhibits 









                      OSHA Monitoring of State OSH Effectiveness 

              11                    Report No. 02-11-201-10-105 

             U.S. Department of Labor – Office of Inspector General 






PAGE INTENTIONALLY LEFT BLANK 





                      OSHA Monitoring of State OSH Effectiveness 

              12                    Report No. 02-11-201-10-105 

                                             U.S. Department of Labor – Office of Inspector General 


                                                                                                     


                                                                                        Exhibit 1
Comments of State OSH Officials on OSHA Monitoring

A. Narrative Comments Expressed by the Majority of State Officials Surveyed

                                                                            Number        Percent
                                Comment                                     of States     of States
State OSH Program Background
1   State plans are more tailored / responsive to needs of the State.           21           78%

2   Concern over recent challenges with staffing/training/funding.              17           63%


Federal Monitoring
3   Federal OSHA does not define effectiveness.                                 19           70%

4   Mandated activities have little impact/no added-value to program            17           63%
    effectiveness.
5   Findings and recommendations were either not supported; not                 16           59%
    applicable to the State; or changed in post-monitoring process.

Suggestions for Improving Federal Monitoring
6   OSHA's effectiveness measures need to be re-evaluated and                   17           63%
    more outcome, rather than, output-oriented.
7   Federal OSHA should be more knowledgeable of State Plans, so                15           56%
    that monitors can be flexible and account for their uniqueness.
8   States want more consistency/direction in monitoring, so                    12           44%
    expectations are made clear.




                                                      OSHA Monitoring of State OSH Effectiveness 

                                              13                    Report No. 02-11-201-10-105 

                                                U.S. Department of Labor – Office of Inspector General 





B. Selected Answers to Survey Multiple Choice Questions
   For questions 1, 2, and 4, only the top (over 50 percent) answers for advantages, disadvantages and
   challenges are summarized below. For questions 3 and 5 rating the feasibility of recommendations
   and overall opinion of monitoring, all answers are included.


                                                                               Number         Percent
               Survey Multiple Choice Questions                                of States      of States
1. What are the advantages to having your own State OSH? (Check all that apply)
  More flexibility in response to specific needs of the workforce in the            27         100%
  state.
  Maintaining state autonomy over worker safety and health                          25          93%
  programs.
  Federal funding to assist with program costs                                      21          78%
  More comprehensive safety and health program in comparison to                     21          78%
  Federal OSHA.
  Federal technical assistance in setting enforcing standards                       14          52%
  Creating employment within state                                                  14          52%

2. What are the disadvantages to having your own State OSH? (Check all that apply)
  Mandated activities and programs do not apply to state needs                      17          63% 

3. From the most recent annual report, how feasible are recommendations from
   Federal OSHA? (Check one)
  Very feasible (i.e. feasible 75% - 100% of the time)                               5          19%
  Usually feasible (i.e. feasible 50% - 74% of the time)                            15          56%
  Usually not feasible (i.e. feasible 25% - 49% of the time)                         4          15%
  Unacceptable (i.e. feasible 1% - 24% of the time)                                  1            4%
  Unfeasible (i.e. never feasible)                                                   1            4%
  No Response                                                                        1            4%
4. What challenges does your State face in addressing the recommendations?
   (Check all that apply)
  Not necessary - disagree with OSHA about problem                                  17          63% 

5. What is your overall opinion of Federal OSHA monitoring of your State OSH
   program? (Check one)
  Excellent                                                                          2            7%
  Very Good                                                                          5          19%
  Neutral opinion                                                                    4          15%
  Needs improvement                                                                 13          48%
  Needs a total revamp                                                               3          11%



                                                          OSHA Monitoring of State OSH Effectiveness 

                                                 14                     Report No. 02-11-201-10-105 

                                             U.S. Department of Labor – Office of Inspector General 


                                                                                                     


                                                                                        Exhibit 2
Data Used by OSHA in Annual Review of State Plans

A. Enforcement Activity – Compare the State; all state plans; and Federal OSHA

   1. Total Inspections - Number
      a. 	 Safety Inspections – Number and Percent
      b. 	 Health Inspections – Number and Percent
      c. 	 Construction Inspections – Number and Percent
      d. 	 Public Sector Inspections – Number and Percent
      e. 	 Programmed Inspections – Number and Percent
      f. 	 Complaint Inspections – Number and Percent
      g. 	 Accident Inspections - Number
      h. 	 Inspections with Violations Cited – Number and Percent
      i. 	 Inspections with Violations Cited – Percent with Serious Violations

   2. Total Violations - Number
      a. 	 Serious Violations – Number and Percent
      b. 	 Willful Violations - Number
      c. 	 Repeat Violations - Number
      d. 	 Serious/Willful/Repeat Violations – Number and Percent
      e. 	 Failure to Abate - Number
      f. 	 Other than Serious – Number and Percent
      g. 	 Average # Violations per Initial Inspection

   3. Total Penalties – Dollar Value
      a. 	 Average Current Penalty/Serious Violation
      b. 	 Average Current Penalty/Serious Violation -Private Sector Only
      c. 	 Percent Penalty Reduced

   4. Percent Inspections with Contested Violations
      a. 	 Average Case Hours per Inspection - Safety
      b. 	 Average Case Hours per Inspection - Health
      c. 	 Lapsed Days from Inspection to Citation Issued – Safety
      d. 	 Lapsed Days from Inspection to Citation - Health
      e. 	 Open, Non-Contested Cases with Incomplete Abatement Over 60 days

B. State Activity Mandated Measures – Compare State with standard/negotiated goal

   1. 	 Average number of days to initiate Complaint Inspections
   2. 	 Average number of days to initiate Complaint Investigations
   3. 	 Percent of Complaints where Complainants were notified on time
   4. 	 Percent of Complaints/Referrals responded to within 1 day –Imminent Danger
   5. 	 Number of Denials where entry not obtained
   6. 	 Percent of Serious/Willful/Repeat Violations verified (Private/Public
   7. 	 Average calendar days from Opening Conference to Citation Issue (Safety/Health)
   8. 	 Percent of Programmed Inspections with Serious/Willful/Repeat Violations
	
        (Safety/Health) 

   9. 	 Average Violations per Inspection with Violations (Serious/Willful/Repeat and Other)

                                                      OSHA Monitoring of State OSH Effectiveness 

                                              15                    Report No. 02-11-201-10-105 

                                              U.S. Department of Labor – Office of Inspector General 




   10. Average Initial Penalty per Serious Violations (Private Sector Only)
   11. Percent of Total Inspections in Public Sector
   12. Average Lapse Time from Receipt of Contest to First Level Decision
   13. Percent of 11c (Whistleblower) Investigations Completed Within 90 Days
   14. Percent of 11c (Whistleblower) Complaints that are Meritorious
   15. Percent of Meritorious 11c Complaints that are Settled

C. State Indicator Report – Compare State against Federal OSHA

   1. Enforcement (Private Sector)
      a.   Programmed Inspections – Safety/Health (number and percent)
      b.   Programmed Inspections with Violations – Safety/Health (number and percent)
      c.   Serious Violations – Safety/Health (number and percent)
      d.   Abatement Period for Violations – Safety > 30 days and Health > 60 days
      e.   Average Penalty – Other than Serious – Safety/Health
      f.   Inspections per 100 hours – Safety/Health
      g.   Violations Vacated (number and percent)
      h.   Violations Reclassified (number and percent)
      i.   Penalty Retention (number and percent)

   2. Enforcement (Public Sector)
      a. Programmed Inspections – Safety/Health (number and percent)
      b. Serious Violations – Safety/Health (number and percent)

   3. Review Procedures
      a. Violations Vacated (number and percent) 

      b. Violations Reclassified (number and percent) 

      c. Penalty Retention (number and percent) 


D. BLS Rates/Data
   1. Days, Away, Restricted, or Transferred (DART) rate and related trends. 

   2. On-the-job Total Recordable Case rate and related trends. 


E. Information Management
   1. Types of reports and frequency of use for IMIS generated forms. 

   2. Quantification of the upkeep of IMIS forms. 


F. Staffing Benchmarks and Training
   1. Staffing levels for both safety and health personnel (actual versus goal). 

   2. Compliance with OSHA's training requirements for OSH personnel. 


G. Standards adoption tracking
   1. Time elapsed by state to adopt new OSHA standards.
   2. Tracking of standards not adopted within the requisite 6 months.




                                                       OSHA Monitoring of State OSH Effectiveness 

                                               16                    Report No. 02-11-201-10-105 

               U.S. Department of Labor – Office of Inspector General 


                                                                       







Appendices 





                        OSHA Monitoring of State OSH Effectiveness 

                17                    Report No. 02-11-201-10-105 

             U.S. Department of Labor – Office of Inspector General 






PAGE INTENTIONALLY LEFT BLANK 





                      OSHA Monitoring of State OSH Effectiveness 

              18                    Report No. 02-11-201-10-105 

                                                          U.S. Department of Labor – Office of Inspector General 


                                                                                                                  


                                                                                                           Appendix A
Background

The role of OSHA is to promote the safety and health of workers by setting and
enforcing standards; providing training, outreach and education; establishing
partnerships; and encouraging continual process improvement in workplace safety and
health. The OSH Act of 1970 authorizes States to assume some responsibilities to
develop and enforce safety and health standards, and provides for grants of up to 50
percent of operational costs to States with programs at least as effective as Federal
OSHA. With OSH Act funding match, Congress encouraged States to operate effective
OSH programs and develop innovative approaches to safety and health. By 2011,
22 States and Territories operated OSH plans covering public and private employees,
while 5 States and Territories operated OSH plans covering only public employees.

                  Table 1: State Plans – Covered Sectors and Approval Dates

                                        Covered Sectors
                                        Public /  Public         Initial       Date           Final
                      State Plans       Private   Only
                                                       9
                                                                Approval     Certified 7    Approval 8
                  Alaska                  X                      7/31/73      9/09/77         9/28/84
                  Arizona                 X                     10/29/74      9/18/81         6/20/85
                  California 10           X                      4/24/73      8/12/77
                  Connecticut                      X            10/02/73      8/19/86
                  Hawaii                  X                     12/28/73      4/26/78          4/30/84
                  Illinois                         X 11          9/01/09
                  Indiana                 X                      2/25/74       9/24/81         9/26/86
                  Iowa                    X                      7/20/73       9/14/76         7/02/85
                  Kentucky                X                      7/23/73       2/08/80         6/13/85
                  Maryland                X                      6/28/73       2/15/80         7/18/85
                  Michigan10              X                      9/24/73       1/16/81
                  Minnesota               X                      5/29/73       9/28/76         7/30/85 

                  Nevada                  X                     12/04/73       8/13/81         4/18/00 

                  New Jersey                       X             1/11/01
                  New Mexico10            X                     12/04/75      12/04/84
                  New York                         X             6/01/84       8/18/06
                  North Carolina          X                      1/26/73       9/29/76       12/10/96
                  Oregon                  X                     12/22/72       9/15/82        5/12/05
                  Puerto Rico10           X                      8/15/77       9/07/82
                  South Carolina          X                     11/30/72       7/28/76       12/15/87
                  Tennessee               X                      6/28/73       5/03/78        7/22/85
                  Utah                    X                      1/04/73      11/11/76        7/16/85
                  Vermont10               X                     10/01/73       3/04/77
                  Virgin Islands                   X 12          7/01/03
                  Virginia                X                      9/23/76       8/15/84       11/30/88
                  Washington10            X                      1/19/73       1/26/82
                  Wyoming                 X                      4/25/74      12/18/80         6/27/85


7
  OSHA determined that developmental steps were satisfactorily completed.
	
8
  OSHA relinquished concurrent Federal jurisdiction.
	
9
  Plan covered State and local government employees only.

10
   OSHA accepted operational status agreement and suspended concurrent Federal jurisdiction.
	
11
   State received developmental plan covering State and local government employees only.
	
12
   State granted final approval in 1984, but voluntarily withdrew from private sector jurisdiction (68 FR 43457, 7/23/03)
	

                                                                     OSHA Monitoring of State OSH Effectiveness 

                                                           19                      Report No. 02-11-201-10-105 

                                                   U.S. Department of Labor – Office of Inspector General 





The following describes the basic steps for developing and approving State Plans.

        Developmental Plans – States must assure that all the structural elements for
        an operational OSH program will be in place within 3 years. These elements
        include: appropriate legislation; standards and procedures for standard setting,
        enforcement, appeal of citations and penalties; and a sufficient number of
        competent enforcement personnel. Appropriate state legislation must be enacted
        and matching Federal funds available prior to OSHA approval.

        Certified Plans – States have completed and documented its developmental
        steps. Certification does not include decisions on actual performance.

        Operational Status Agreement – OSHA may offer to States that appear
        capable of independently enforcing standards. OSHA voluntarily limits
        discretionary Federal enforcement in all or certain activities covered by the plan.

        Final Approval Plans – OSHA relinquishes its authority to cover OSH matters
        covered by the plan. After at least 1 year of certification, the state may request
        final approval. OSHA determines whether the State program is providing worker
        protection at least as effective as the Federal program. State also must meet
        established staffing benchmarks 13 and participate in IMIS.

For FY 2010, States were granted funding between $201,000 (Virgin Islands) and
$23,013,900 (California). Total funding over the last 5 years is summarized below.

                                      Table 2: State Plan Funding 


                                         FY           Funding 14
	

                                        2010         $104.4 million
                                        2009          $92.6 million
                                        2008          $89.5 million
                                        2007          $91.1 million
                                        2006          $91.1 million


According to OSHA officials, State Plans were originally approved and funded at
whatever level the State requested. Over a period of time, some States increased their
funding contribution, but OSHA no longer had sufficient grant funds to match the States'
expanded contribution. A funding formula was developed by a Federal/State task group
with the goal of moving toward more equitable, consistent funding nationwide – to
establish a uniform base and help the "under-funded" without taking money away from
the other states. OSHA used the DART rate as objective criterion and granted the
largest allocations to “under-funded” states with highest rates. The funding formula was
used on rare occasions when Congress allocates additional funds, beyond a cost-of-
living adjustment, and was applied only to the increase.

13
   In the 1978 decision AFL-CIO v. Marshall, U.S. Court of Appeals for the District of Columbia, the court 

ruled that States must provide sufficient compliance personnel for a “fully effective” program.

14
   Excludes Recovery Act funds of $1.5 million to 7 States for ARRA-related inspections (7/09-9/10) 


                                                             OSHA Monitoring of State OSH Effectiveness 

                                                     20                    Report No. 02-11-201-10-105 

                                          U.S. Department of Labor – Office of Inspector General 


                                                                                                  


                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Has OSHA ensured that State Plans operate OSH programs that are at least as
effective as Federal OSHA?

Scope

The audit covered 27 States with OSH programs in FY 2010 – 22 States cover both
public and private sectors employers, and 5 States cover only public sector employers.
OSHA granted $2.4 billion to develop and operate State OSH programs since 1972.
FY 2010 funding totaled $104 million.

Methodology

A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered internal controls significant to the audit were properly designed and placed
in operation. This included reviewing OSHA’s policies and procedures for monitoring
State Plan programs. We confirmed our understanding of these controls and
procedures through interviews and documentation review.

Specifically, we reviewed OSHA policies and procedures, related OIG and GAO reports,
and OSHA internal monitoring reports. We tested compliance with monitoring
procedures through interviews and examination of documents in two regions (New York
and Philadelphia) and two states within the regions (New Jersey and Maryland)
selected judgmentally based on characteristics of the state program including workers
covered, injury rates, and funding. We interviewed officials at OSHA National and all 10
Regional Offices. We surveyed all 27 State Plan Administrators regarding OSHA
monitoring.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Criteria

   •	 Occupational Safety and Health Act of 1970, Public Law 91-596, 

      December 29, 1970, as amended, Sections 6, 18, and 23 



                                                   OSHA Monitoring of State OSH Effectiveness 

                                           21                    Report No. 02-11-201-10-105 

                                    U.S. Department of Labor – Office of Inspector General 


                                                                                            


•	 Code of Federal Regulations, 29 CFR Parts 1902 and 1952 thru 1956

•	 OSHA’s State Plan Policies and Procedures Manual, OSH directive nos.
   STP 2-0.22B and STP 2-0.22A, Change 3

•	 Government Performance Results Act (Public Law 103-62, August 3, 1993) and
   GPRA Modernization Act (Public Law 111-352, January, 4, 2011)




                                             OSHA Monitoring of State OSH Effectiveness 

                                     22                    Report No. 02-11-201-10-105 

                                     U.S. Department of Labor – Office of Inspector General 


                                                                                             


                                                                             Appendix C
Acronyms and Abbreviations

BLS                Bureau of Labor Statistics

CPO                Federal Chief Performance Officer

DART               Days Away, Restricted, or Transferred

DOL                U.S. Department of Labor

EFAME              Enhanced Federal Annual Monitoring and Evaluation

GAO                U.S. Government Accountability Office

GPRA               Government Performance Results Act of 1993

IMIS               Integrated Management Information System

OIG                Office of Inspector General

State OSH          State Plan Occupational Safety and Health Programs

OSH Act            Occupational Safety and Health Act of 1970

OSHA               Occupational Safety and Health Administration




                                                OSHA Monitoring of State OSH Effectiveness 

                                      23                      Report No. 02-11-201-10-105 

             U.S. Department of Labor – Office of Inspector General 






PAGE INTENTIONALLY LEFT BLANK






                      OSHA Monitoring of State OSH Effectiveness 

              24                    Report No. 02-11-201-10-105 

                                                         U.S. Department of Labor – Office of Inspector General 


                                                                                                                 


                                                                                                              Appendix D
OSHA Response to Draft Report




      u.s. Department of labor                  Assistant SecretaI)' for
                                                Occupalional Safety WId Health
                                                Washington, D.C. :2021 0


            MAR 3 I 2011


         MEMORANDUM FOR:               ELLIOT P. LEWIS
                                       Assistant Inspector General          r Audit


         FROM:                         D~~'MPH
         SUBJECT:                      Response to OIO's Draft Audit Report
                                       # 02-11-201-10-105
                                       "OSHA Had Not Determined if State OSH Programs Were at
                                       Least as Effective in Improving Workplace Safety and Health As
                                       Federal OSHA' s Programs"

         'Ibis memorandum is in response to your March 21, 2011, transmittal of the Officc of Inspector
         General (OIG) Draft Audit Report No. 02- 11 -201-10-105, "OSHA Had Not Determined if Slate
         OSH Programs Were at Least as Effective in Improving Workplace Safety and Health As
         Federal OSHA's Programs." We appreciate the opportunity to respond to the lindings and
         recommendations of the oro. While we agree with the intent of the recommendations, we are
         also concemed that attempting to define the effectiveness of State plans by relying exclusively
         on a system of impact or outcome measures is not only extremely problematic, but wou ld not
         fulfill the more specific and extensivc requirements of the Occupational Safety and Health Act of
         1970 (The Act).

        As you note in this report, while Congress required OSHA to approve stale plans that are " at
        least as effective" as the federal program,--the Act does not specifically define "effective." In
        addition, the law requires federal OSHA to conduct a "continuing evaluation of the manner in
        which each Stale ... is carrying out such plan. " While we agree that outcome measures are
        desirable for evaluating the effectiveness of both the Federal OSHA program and the programs
        of the 27 States that operate their own OSHA-approved State plans, OSHA do es not agree with
        the report's dismissal of activity or performance measures as ineffective or meaningless in
        determining states' effectiveness or the extent to which they are carrying out their plan.

        Congress did not simply direct OSHA to achieve a particular outcome. Section IS of the Act
        ""'lllires OSHA to ~vlliuate all aspect~ of a State program, not only its results. There are very
        prescriptive requirements in the Act and OSHA's implementing regulations for the organization
        and operation of OSHA-approved State Plans for which Federal funding is provided. For
        example, Section l8(e)(2) of the Act requires federal OSHA to determine that State Pian
        standards and their enforcement are at least as effective as federal OSHA ' s and mandates certain
        activities that constitute a system of enforcement. Section is(c)(3) requires states to provide for




                                                                           OSHA Monitoring of State OSH Effectiveness 

                                                           25                            Report No. 02-11-201-10-105 

                                                    U.S. Department of Labor – Office of Inspector General 


                                                                                                            



                                                         

                                                         



                                                     2

    employee and employer rights, protection for whistleblowcrs, the identification and citation of
    hazards, the proposal of first instance sanctions as a deterrent to non-compliance prior to
    inspection and other "activities" that arc integral elements of an effective program. These
    statutorily mandated activities must be evaluated and Section 18(f) requires federal OSHA to
    ensure that State Plans do not fail "to comply substantially with any provision of the State plan."
    We believe that activities measures are not only interim tools that can be used as the agency
    develops outcome measures, but are in themselves important indicators of program operation and
    effectiveness. An evaluation of outcomes will not necessarily reflect the quality or adequacy of
    these activities and therefore would fail as an evaluation of these activities.

    OSHA is certainly aware of the importance - and the difficulty -of using outcome measures to
    detennine the effectiveness ofthc federal or state programs. In fact, the Department of Labor' s
    FY 2011·20 16 Strategic Plan commits its agencies, including OSHA, "to measuring outcomes
    that describe the effect of the agencies' activities On the day·to-day lives of working families."
    The Strategic Plan also rceognizes, however, that ~worker protection agencies face R more
    daunting task in determining whether the enforcement strategies undertaken in a given year are
    having an effect on broader outcome rates" and points to the use of"oUlcome data trends,
    analysis of annual performance, and the corresponding OUl·puts" to measure improved
    performance.

    Background

    In order to unde~tand OSHA's activities in this an:a, it is important to understand the recent
    history ufStale Plan ove rsight and ule cha.nges that OSHA is in the proces~ ufimplemcnting.
    The monitoring system used in the evaluations of the State Plans immediately preceding the
    Nevada Special Study in 2009 and the Enhanced FAME effort in the other States was the system
    developed during the mid-to·late· 1990's which focused on achievement oftbe State's ovro goals
    rather than extensive activities measures and on-site monitoring.

    It was the more intensive review of activities measures, in addition to ease file reviews and an
    on·sile monit~ring component conducted as part oflbe 2009 Special Study in Nevada'and
    Enhanced FAME effort in the other Slates that revealed the significant operational issues.
    Indeed, this demonstrates the significance of activity measures and the imponance ofrevicwing
    areas other than outcome data in determining the effectiveness of a State' s program.

    OSHA's FY 2009 Enhanced Federal Annual Monitoring and Evaluation (EF AME) Reports and
    guidance for FY 2011 monitoring are responses to problems identified with the current system
    Ihat was developed and implemented in the mid-to-late-1990's. Tbat system, partly a response to
    recommendations by the Government Accountability Office and the Government Perfonnance
    and Results Act (GPRA), moved OSHA's federal oversight 10 a more outeome·based monitoring
    system, and focused on each Slate's own Strategic Plan and the achi eveme nt of the State's own
    goals, with minimal on· site monitoring activity. Experience under this system has demonstrated
    that some problems with State enforcement were not being identified, and that more
    FederaVState comparison measures and on-site monitoring are needed.










                                                                OSHA Monitoring of State OSH Effectiveness 

                                                     26                       Report No. 02-11-201-10-105 

                                                U.S. Department of Labor – Office of Inspector General 


                                                                                                        





                                                  3



RESPONSE TO RECOMMENDATIONS

Recommendation 1: Deline eITectiveness in terms of the impact of State OSH programs on
workplace safety and heallh.

OSHA Response: OSHA agrees that measuring the impact orSta!e programs on workplace
safety and health would be useful in determining the effectiveness of State programs. That is
why OSHA uses reductions in inju!)' and illness rates as well as reductions in fatality rales as
outcome measures to assess the success of both the State and Federal programs. OSHA and
DOL are continuing to develop additional impact measures for both Federal OSHA and the
States. lbis is a difficult task, and OSHA would welcome any suggestions for such measures or
information on studies that may bave produced such measure~.

OSHA is concerned, however, that attempting to define the effectiveness of State plans by
relying exclusively on a system of impact or outcome measures is not only extremely
problematic, but, as discussed above, would not fulfill the more specific and extensive
requirements of the Occupational Safety and Health Act of 1970. Indeed, if outcome measures,
such as injury, illness and fatality rates had been used as an cxclusive measure of effectiveness,
Nevada would have continued to receive an effective rating despite the serious problems that
federal OSHA identified in its special study. OSHA believes that appfOpriate activity or
performancc measures can be useful in determining states' efIectiveness and the extent to which
thcyare carrying out their plan

As a Federally funded program, States must account for the performance of the funded activities
as well as results. In addition, OSHA's activity m~asures are not solely counts of numbers of
inspections or other activities; thcy focus on the timeliness of responses to complaints, fatalities,
and othcr cvents, on the preservation of employee and employer rights, including the protection
of whistleblowers, on the ability of Slates to target their inspections to those workplaces where
hazards are likely to occur, and on the actions taken when hazards are discovered. OSHA
believes that these and other factors, as set out in t~'e Act, must also be considered in defining
effectiveness. The DOL Strategic Plan notes that if agencies are doing their jobs properly,
producing outputs in a sufficient quantity should lXoduee the desired outcomes. Thus, while
OSHA wi ll continue to take action with regard to developing impact measures, we do not expect
that they will be the only measuremenl of State program effectiveness.

Recommendation 2: Design measures to quantify the impact of State OSH on work place
safety and hea lth.

OSHA Respo nse: As discussed above, OSHA is working to develop impact measures for both
Federal OSHA and State plans. The DOL strategic planning process emphasized the
development of outcome measures and the need to link them to impact. DOL is working with its
enforcement agencies in the development of these measures, in addition to the continued
development of appropriate activity measures, panicularly for the worker protection agencies.
There are several ongoing DOL studies to this end.




                                                             OSHA Monitoring of State OSH Effectiveness 

                                                  27                       Report No. 02-11-201-10-105 

                                                           U.S. Department of Labor – Office of Inspector General 






                                                          4


    Recommendation 3: Measure Federal OSH program to establis h a baseline to evaluate
    Stale OSH effectiveness.

    OSHA Respo nse: On the Federal level, the Department of Labor FY 2011·2016 Strategic Plan
    envisions a review of trends in compliance, violation, or discrimination rates as measures of
    impact.! OSHA looks at injUI)', illness, and fatality rates in selected sectors as one indication of
    OSHA's impact, while acknowledging that there are inherent problems with these data, among
    them the reliance on employer self-reporting for injury and iHness data, the data's heavy
    dependence on the level of economic activity and the changing composition oflhe economy
    from manufacturing to the service sector _ In some state plan states, BLS has noted that the
    sample Si7..e is not large enough to present a ~omplete picture of injuries and illnesses.
    Neverthcless, OSHA will continue to seek methods of addressing this iss ue and include State
    plans in the process as appropriate.

    Recomme nda ti on 4: Ass ure effectiveness by rev ising t he monitori ng proeesses to include
    comparison of th e im pact of State OS" and Federal OSHA.

    OSHA Response: Any useful impact measures will be incorporated into a new OSHA State
    plan monitoring system which Federal OSHA is currently developing in consultation with the
    states. As finalizing this system wi ll take some time, we plan in the interim to revise OSHA's
    monitoring system by deve loping more meaningful activities measures that will directly compare
    State to Fcderal perfonllance and strengthening monitoring procedures to mandatc on-site
    monitoring activities including review of State enforcement case filcs. We are also
    implementing a system to give States moce advance notice of, and input illto, changes to the
    Federal program which will impact their programs, induding National Emphasis programs and
    penalty policies. We also agree that we need to provide more explanation and justification to the
    States on why we are changing policies and programs that affect them. We will include more
    background infonnation on the reasons behind new policies and procedures in future issuances.

    We appreciate yOUT review and assistance, and thc cooperation of your staff, as we work toward
    our common goal of ensuring that State OSHA programs are at least as efIeclive as the Federd!
    program.




    'Trends, p. 16, Department or Labor FY 2011-2016 Strategic Plan








                                                                      OSHA Monitoring of State OSH Effectiveness 

                                                              28                    Report No. 02-11-201-10-105 

                                         U.S. Department of Labor – Office of Inspector General 


                                                                                                 


                                                                                 Appendix E
Acknowledgements

Key contributors to this report were Mark Schwartz (Audit Director), Rebecca Bowen,
Danielle Brown-Buzan, Sean Ally, Enrique Lozano, Reza Noorani and Mary Lou
Casazza.




                                                  OSHA Monitoring of State OSH Effectiveness 

                                          29                    Report No. 02-11-201-10-105 

             U.S. Department of Labor – Office of Inspector General 






PAGE INTENTIONALLY LEFT BLANK 





                      OSHA Monitoring of State OSH Effectiveness 

              30                    Report No. 02-11-201-10-105 







    TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

    Online:   http://www.oig.dol.gov/hotlineform.htm
    Email:    hotline@oig.dol.gov

    Telephone:      1-800-347-3756
                    202-693-6999

    Fax:            202-693-7020

    Address: Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210




